  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




     BLUE CROSS BLUE SHIELD
 ASSOCIATION DID NOT CLAIM SOME
      ALLOWABLE MEDICARE
POSTRETIREMENT BENEFIT COSTS FOR
 FISCAL YEARS 2002 THROUGH 2010

    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                         May 2014
                                                       A-07-14-00434
                           Office of Inspector General
                                            https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of
Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

   Blue Cross Blue Shield Association did not claim allowable postretirement benefit costs
   of $14,000 for Medicare reimbursement for fiscal years 2002 through 2010.


WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their postretirement benefit
(PRB) costs, which are funded by direct payments to beneficiaries or contributions to a dedicated
trust fund. The amount of PRB costs that the Centers for Medicare & Medicaid Services (CMS)
reimburses to the contractors is determined by the cost reimbursement principles contained in the
Federal Acquisition Regulation as required by the Medicare contracts. Previous Office of
Inspector General reviews found that Medicare contractors have not always complied with
Federal requirements when claiming PRB costs for Medicare reimbursement.

For this review, we focused on one Medicare contractor, Blue Cross Blue Shield Association (the
Association). In particular, we examined the Medicare segment and Other segment allowable
PRB costs (which for this report we will refer to as “PRB costs”) that the Association claimed
for Medicare reimbursement on its Final Administrative Cost Proposals (FACPs).

The objective of this review was to determine whether the fiscal years (FYs) 2002 through 2010
PRB costs that the Association claimed for Medicare reimbursement under the provisions of its
fiscal intermediary and carrier contracts, and reported on its FACPs, were allowable and
correctly claimed.

BACKGROUND

The Association administers Medicare Part A operations under cost reimbursement contracts
with CMS.

The Association sponsors a PRB plan called the Blue Cross Blue Shield Association Retiree Life
and Health Benefits Program. This plan is designed to provide medical, dental, and life
insurance benefits to Association retirees and their dependents. The Association claimed PRB
costs for Federal reimbursement on an accrual basis.

The Association established its Voluntary Employee Benefit Association trust and began funding
it in January 1994. During FYs 2002 and 2003, the Association included PRB costs for key
employees in its claims for Medicare reimbursement. During FYs 2004 through 2010, the
Association excluded PRB costs related to key employees from its claims for Medicare
reimbursement.

We reviewed $981,055 of PRB costs claimed by the Association for Medicare reimbursement
under the provisions of its fiscal intermediary and carrier contracts, and reported on its FACPs,
for FYs 2002 through 2010.




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)             i
WHAT WE FOUND

The Association claimed $981,055 in PRB costs for FYs 2002 through 2010; however, we
determined that the allowable PRB costs for this period were $995,354. The difference, $14,299,
represented allowable PRB costs that the Association did not claim on its FACPs for FYs 2002
through 2010. The Association did not claim these allowable Medicare PRB costs primarily
because it excluded pay-as-you-go costs for key employees from its claims for Medicare
reimbursement.

WHAT WE RECOMMEND

We recommend that the Association revise its FACPs for FYs 2002 through 2010 to claim
additional PRB costs of $14,299.

AUDITEE COMMENTS

In written comments on our draft report, the Association accepted our recommendation.




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)      ii
                                                     TABLE OF CONTENTS

INTRODUCTION .......................................................................................................................... 1

           Why We Did This Review .................................................................................................. 1

           Objective ............................................................................................................................. 1

           Background ......................................................................................................................... 1
                 Blue Cross Blue Shield Association ....................................................................... 1
                 Medicare Reimbursement of Postretirement Benefit Costs .................................... 2

           How We Conducted This Review....................................................................................... 2

FINDING ........................................................................................................................................ 2

           Claimed Postretirement Benefit Costs ................................................................................ 2

           Allowable Postretirement Benefit Costs Not Claimed ....................................................... 3

RECOMMENDATION .................................................................................................................. 3

AUDITEE COMMENTS................................................................................................................ 3

APPENDIXES

    A: Audit Scope and Methodology ............................................................................................ 4

    B: Federal Regulations Related to Medicare
       Reimbursement of Postretirement Benefit Costs ................................................................. 6

    C: Allowable Medicare Postretirement Benefit
       Costs for Blue Cross Blue Shield Association
       for Fiscal Years 2002 Through 2010 ................................................................................... 7

    D: Auditee Comments............................................................................................................. 13




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)                                                          iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their postretirement benefit
(PRB) costs, which are funded by direct payments to beneficiaries or contributions to a dedicated
trust fund. The amount of PRB costs that the Centers for Medicare & Medicaid Services (CMS)
reimburses to the contractors is determined by the cost reimbursement principles contained in the
Federal Acquisition Regulation (FAR) as required by the Medicare contracts. Previous Office of
Inspector General reviews found that Medicare contractors have not always complied with
Federal requirements when claiming PRB costs for Medicare reimbursement.

For this review, we focused on one Medicare contractor, Blue Cross Blue Shield Association (the
Association). In particular, we examined the Medicare segment and Other segment allowable
PRB costs (which for this report we will refer to as “PRB costs”) that the Association claimed
for Medicare reimbursement on its Final Administrative Cost Proposals (FACPs).

OBJECTIVE

Our objective was to determine whether the fiscal years (FYs) 2002 through 2010 PRB costs that
the Association claimed for Medicare reimbursement under the provisions of its fiscal
intermediary and carrier contracts, and reported on its FACPs, were allowable and correctly
claimed.

BACKGROUND

Blue Cross Blue Shield Association

The Association administers Medicare Part A operations under cost reimbursement contracts
with CMS.

The Association sponsors a PRB plan called the Blue Cross Blue Shield Association Retiree Life
and Health Benefits Program. This plan is designed to provide medical, dental, and life
insurance benefits to Association retirees and their dependents. The Association claimed PRB
costs for Federal reimbursement on an accrual basis.

The Association participates in a Voluntary Employee Benefit Association (VEBA) trust for the
purpose of funding annual PRB accruals. The Association established its VEBA trust and began
funding it in January 1994. VEBA rules do not allow for the funding and reimbursement of key
employees through the VEBA trust. Accordingly, PRB costs for key employees that are not
funded through the VEBA trust may be accounted for on a pay-as-you–go basis. The
Association’s CMS-approved accounting practice used accrual accounting for non-key
employees and the pay-as-you-go basis for key employees. During FYs 2002 and 2003, the
Association included PRB costs for key employees in its claims for Medicare reimbursement.
During FYs 2004 through 2010, the Association excluded PRB costs related to key employees
from its claims for Medicare reimbursement.



Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)         1
Medicare Reimbursement of Postretirement Benefit Costs

CMS reimburses a portion of the funded accruals that contractors charge for their PRB plans.
FAR 31.205-6(o) requires that, to be allowable for Medicare reimbursement on an accrual basis,
PRB accrual costs be (1) determined in accordance with Statement of Financial Accounting
Standards (SFAS) 106 and (2) funded by payments to an insurer or into a dedicated trust fund,
such as a VEBA trust.

CMS also reimburses a portion of the pay-as-you-go costs related to employees that are not
accounted for on an accrual basis and are not reimbursable from VEBA trust assets. To be
allowable for Medicare reimbursement, pay-as-you-go PRB costs must be assigned to the period
in which the benefits are actually provided or to the period when the costs are paid to an insurer,
provider, or other recipient for current year benefits or premiums (FAR 31.205-6(o)(2)(i)).

HOW WE CONDUCTED THIS REVIEW

We reviewed $981,055 of PRB costs claimed by the Association for Medicare reimbursement
under the provisions of its fiscal intermediary and carrier contracts, and reported on its FACPs,
for FYs 2002 through 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                 FINDING

The Association claimed $981,055 in PRB costs for FYs 2002 through 2010; however, we
determined that the allowable PRB costs for this period were $995,354. The difference, $14,299,
represented allowable PRB costs that the Association did not claim on its FACPs for FYs 2002
through 2010. The Association did not claim these allowable Medicare PRB costs primarily
because it excluded pay-as-you-go costs for key employees from its claims for Medicare
reimbursement.

CLAIMED POSTRETIREMENT BENEFIT COSTS

The Association claimed PRB costs of $981,055 for Medicare reimbursement on its FACPs for
FYs 2002 through 2010. We calculated the allowable Medicare PRB costs in accordance with
the FAR. For details on the Federal requirements, see Appendix B.




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)             2
ALLOWABLE POSTRETIREMENT BENEFIT COSTS NOT CLAIMED

We determined that the allowable PRB costs for FYs 2002 through 2010 were $995,354. Thus,
the Association did not claim $14,299 of allowable PRB costs on its FACPs for FYs 2002
through 2010. This underclaim occurred primarily because the Association omitted costs related
to key employees. More specifically, during FYs 2004 through 2010, the Association removed
the liabilities related to key employees from its PRB cost computations and did not claim pay-as-
you-go costs. We determined the portion of key employees’ direct benefits that were paid but
not reimbursed by the VEBA trust and included those costs as allocable PRB costs.

The table below shows the difference between the allowable PRB costs that we calculated and
the PRB costs that the Association claimed on its FACPs and that were reflected in its
accounting documents for FYs 2002 through 2010. Appendix C contains additional details on
allowable PRB costs.

             Table: Comparison of Allowable PRB Costs and Claimed PRB Costs

                                         Medicare PRB Costs
                                    Allowable          Claimed by
                   Fiscal Year      Per Audit        the Association         Difference
                      2002             $83,902               $77,936                $5,966
                      2003             122,274               104,100                18,174
                      2004             107,133               136,987             (29,854)
                      2005             121,789                87,147                34,642
                      2006             153,931               154,873                 (942)
                      2007             134,125               143,964               (9,839)
                      2008              88,543               120,400             (31,857)
                      2009              93,938                58,575                35,363
                      2010              89,719                97,073               (7,354)
                      Total           $995,354              $981,055              $14,299

                                         RECOMMENDATION

We recommend that the Association revise its FACPs for FYs 2002 through 2010 to claim
additional PRB costs of $14,299.

                                        AUDITEE COMMENTS

In written comments on our draft report, the Association accepted our recommendation.
Specifically, the Association stated that it would work with CMS to claim a refund of $14,299
and enhance accounting procedures to claim future allowable Medicare PRB costs.

The Association’s comments are included in their entirety as Appendix D.




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)         3
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $981,055 of PRB costs that the Association claimed for Medicare reimbursement
under the provisions of its fiscal intermediary and carrier contracts, and reported on its FACPs,
for FYs 2002 through 2010.

Achieving our objective did not require that we review the Association’s overall internal control
structure. We reviewed the controls related to the accrued PRB costs that the Association
claimed for Medicare reimbursement to ensure that the claimed PRB costs were allowable in
accordance with the FAR.

We performed our fieldwork at the Association’s office in Chicago, Illinois.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed the portions of the FAR and Medicare contracts applicable to this audit;

    •   reviewed accounting records and FACP information provided by the Association to
        identify the amount of PRB costs claimed for Medicare reimbursement for FYs 2002
        through 2010;

    •   used information that the Association’s actuarial consulting firms provided, including
        information on VEBA assets, PRB obligations, service costs, contributions, claims paid,
        claims reimbursed, investment earnings, and administrative expenses;

    •   examined the Association’s PRB plan documents and annual actuarial valuation reports,
        which included SFAS 106 information;

    •   determined the extent to which the Association funded PRB costs with contributions to
        the VEBA trust, accumulated prepayment credits, and direct payments;

    •   engaged the CMS Office of the Actuary to calculate the PRB costs based on the
        SFAS 106 methodology applied in accordance with FAR 31.205-6(o);

    •   reviewed and verified the CMS actuaries’ methodology and calculations and used this
        information to calculate the PRB costs for the period FYs 2002 through 2010; and

    •   discussed the results of our review with Association officials on March 24, 2014.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)             4
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)        5
        APPENDIX B: FEDERAL REQUIREMENTS RELATED TO MEDICARE
           REIMBURSEMENT OF POSTRETIREMENT PENSION COSTS

Federal regulations (FAR 31.205-6(o)) require that PRB accrual costs be determined in
accordance with SFAS 106 and funded by payments to an insurer or into a dedicated trust fund,
such as a VEBA trust. The FAR states that accrual accounting may be used to determine the
allowable PRB costs if the costs are measured and assigned (actuarially determined) according to
generally accepted accounting principles based on amortization of any transition obligation.
Costs attributable to past service (transition obligation) must be assigned under the delayed
recognition methodology described in paragraphs 112 and 113 of SFAS 106. The FAR also
states that allowable costs must be funded by the time set for filing the Federal income tax return
or any extension thereof, and must comply with the applicable standards promulgated by the
Cost Accounting Standards (CAS) Board.

Federal regulation (FAR 31.205-6(o)(2)(i)) requires that, to be allowable for Medicare
reimbursement, pay-as-you-go PRB costs be assigned to the period in which the benefits are
actually provided or to the period when the costs are paid to an insurer, provider, or other
recipient for current year benefits or premiums.




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)           6
                                 APPENDIX C: ALLOWABLE MEDICARE POSTRETIREMENT BENEFIT 

                                      COSTS FOR BLUE CROSS BLUE SHIELD ASSOCIATION 

                                             FOR FISCAL YEARS 2002 THROUGH 2010


                                                                                   Total          Other        Medicare      Total
            Date                           Description                            Company        Segment       Segment      Medicare

            2001            Contributions                                   1/     $1,467,555    $1,467,555
                            Discount for Interest                           2/      ($121,174)    ($121,174)
     January 1, 2001        Present Value Contributions                     3/     $1,346,381    $1,346,381
                            Prepayment Credit Applied                                      $0            $0
                            Present Value of Funding                        4/     $1,346,381    $1,346,381

     January 1, 2001        CAS Funding Target                              5/     $1,346,381    $1,346,381
                            Percentage Funded                               6/                      100.00%
                            Funded PRB Cost                                 7/                   $1,346,381
                            Unallowable Interest                                                         $0
                            Allowable Interest                             8/                       $85,832
            2001            CY Allocable PRB Cost                          9/                    $1,432,213
                            Headcount Percentage                          10/                        96.32%         3.68%
            2001            CY Allocable PRB Cost                                                $1,379,508       $52,705
                            Medicare LOB* Percentage                      11/                         1.64%        99.26%
            2001            CY Allowable PRB Costs                        12/                       $22,624       $52,315    $74,939




                                                                                   Total          Other        Medicare      Total
            Date                           Description                            Company        Segment       Segment      Medicare

            2002            Contributions                                          $1,731,344    $1,731,344
                            Discount for Interest                                   ($140,996)    ($140,996)
     January 1, 2002        Present Value Contributions                            $1,590,348    $1,590,348
                            Prepayment Credit Applied                                      $0            $0
                            Present Value of Funding                               $1,590,348    $1,590,348

     January 1, 2002        CAS Funding Target                                     $1,588,389    $1,588,389
                            Percentage Funded                                                       100.00%
                            Funded PRB Cost                                                      $1,588,389
                            Unallowable Interest                                                         $0
                            Allowable Interest                                                     $101,260
            2002            CY Allocable PRB Cost                                                $1,689,649
                            Headcount Percentage                                                     96.17%         3.83%
            2002            CY Allocable PRB Cost                                                $1,624,935       $64,714
                            Medicare LOB* Percentage                                                  1.44%        98.11%
            2002            CY Allowable PRB Costs                                                  $23,399       $63,491    $86,890

            2002            FY Allowable PRB Costs                        13/                       $23,205       $60,697    $83,902




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)                                            7
                                                                                   Total          Other        Medicare      Total
            Date                           Description                            Company        Segment       Segment      Medicare

            2003            Contributions                                          $2,583,991    $2,583,991
                            Discount for Interest                                   ($188,960)    ($188,960)
     January 1, 2003        Present Value Contributions                            $2,395,031    $2,395,031
                            Prepayment Credit Applied                     14/          $2,136        $2,136
                            Present Value of Funding                               $2,397,167    $2,397,167

     January 1, 2003        CAS Funding Target                                     $2,381,737    $2,381,737
                            Percentage Funded                                                       100.00%
                            Funded PRB Cost                                                      $2,381,737
                            Unallowable Interest                                                         $0
                            Allowable Interest                                                     $143,400
            2003            CY Allocable PRB Cost                                                $2,525,137
                            Headcount Percentage                                                     95.42%         4.58%
            2003            CY Allocable PRB Cost                                                $2,409,486      $115,651
                            Medicare LOB* Percentage                                                  1.17%        91.55%
            2003            CY Allowable PRB Costs                                                  $28,191      $105,878   $134,069

            2003            FY Allowable PRB Costs                                                  $26,993       $95,281   $122,274




                                                                                   Total          Other        Medicare      Total
            Date                           Description                            Company        Segment       Segment      Medicare

            2004            Contributions                                          $1,796,344    $1,796,344
                            Discount for Interest                                   ($140,348)    ($140,348)
     January 1, 2004        Present Value Contributions                            $1,655,996    $1,655,996
                            Prepayment Credit Applied                                 $16,742       $16,742
                            Present Value of Funding                               $1,672,738    $1,672,738

     January 1, 2004        CAS Funding Target                                     $2,272,863    $2,272,863
                            Percentage Funded                                                        73.60%
                            Funded PRB Cost                                                      $1,672,827
                            Unallowable Interest                                                         $0
                            Allowable Interest                                                     $100,718
            2004            CY Allocable PRB Cost                                                $1,773,545
                            CY Allocable Pay-As-You-Go Cost               15/                       $51,262
                            Total CY Allocable PRB Cost                                          $1,824,807
                            Headcount Percentage                                                     95.33%         4.67%
            2004            CY Allocable PRB Cost                                                $1,739,589       $85,218
                            Medicare LOB* Percentage                                                  1.04%        93.95%
            2004            CY Allowable PRB Costs                                                  $18,092       $80,062    $98,154

            2004            FY Allowable PRB Costs                                                  $20,617       $86,516   $107,133




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)                                            8
                                                                                   Total          Other        Medicare      Total
            Date                           Description                            Company        Segment       Segment      Medicare

            2005            Contributions                                          $2,786,624    $2,786,624
                            Discount for Interest                                   ($204,724)    ($204,724)
     January 1, 2005        Present Value Contributions                            $2,581,900    $2,581,900
                            Prepayment Credit Applied                                      $0            $0
                            Present Value of Funding                               $2,581,900    $2,581,900

     January 1, 2005        CAS Funding Target                                     $2,546,614    $2,546,614
                            Percentage Funded                                                       100.00%
                            Funded PRB Cost                                                      $2,546,614
                            Unallowable Interest                          16/                      ($34,667)
                            Allowable Interest                                                     $142,344
            2005            CY Allocable PRB Cost                                                $2,654,291
                            CY Allocable Pay-As-You-Go Cost                                         $63,876
                            Total CY Allocable PRB Cost                                          $2,718,167
                            Headcount Percentage                                                     95.97%         4.03%
            2005            CY Allocable PRB Cost                                                $2,608,625      $109,542
                            Medicare LOB* Percentage                                                  1.06%        93.13%
            2005            CY Allowable PRB Costs                                                  $27,651      $102,016   $129,667

            2005            FY Allowable PRB Costs                                                  $25,261       $96,528   $121,789




                                                                                   Total          Other        Medicare      Total
            Date                           Description                            Company        Segment       Segment      Medicare

            2006            Contributions                                          $3,653,712    $3,653,712
                            Discount for Interest                                   ($277,317)    ($277,317)
     January 1, 2006        Present Value Contributions                            $3,376,395    $3,376,395
                            Prepayment Credit Applied                                 $38,109       $38,109
                            Present Value of Funding                               $3,414,504    $3,414,504

     January 1, 2006        CAS Funding Target                                     $3,338,880    $3,338,880
                            Percentage Funded                                                       100.00%
                            Funded PRB Cost                                                      $3,338,880
                            Unallowable Interest                                                   ($33,159)
                            Allowable Interest                                                     $187,324
            2006            CY Allocable PRB Cost                                                $3,493,045
                            CY Allocable Pay-As-You-Go Cost                                         $65,659
                            Total CY Allocable PRB Cost                                          $3,558,704
                            Headcount Percentage                                                     96.15%         3.85%
            2006            CY Allocable PRB Cost                                                $3,421,694      $137,010
                            Medicare LOB* Percentage                                                  1.04%        92.28%
            2006            CY Allowable PRB Costs                                                  $35,586      $126,433   $162,019

            2006            FY Allowable PRB Costs                                                  $33,602      $120,329   $153,931




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)                                            9
                                                                                   Total          Other        Medicare      Total
            Date                           Description                            Company        Segment       Segment      Medicare

            2007            Contributions                                          $3,268,292    $3,268,292
                            Discount for Interest                                   ($240,111)    ($240,111)
     January 1, 2007        Present Value Contributions                            $3,028,181    $3,028,181
                            Prepayment Credit Applied                                 $81,674       $81,674
                            Present Value of Funding                               $3,109,855    $3,109,855

     January 1, 2007        CAS Funding Target                                     $2,967,255    $2,967,255
                            Percentage Funded                                                       100.00%
                            Funded PRB Cost                                                      $2,967,255
                            Unallowable Interest                                                   ($34,667)
                            Allowable Interest                                                     $166,180
            2007            CY Allocable PRB Cost                                                $3,098,768
                            CY Allocable Pay-As-You-Go Cost                                         $64,402
                            Total CY Allocable PRB Cost                                          $3,163,170
                            Headcount Percentage                                                     96.29%         3.71%
            2007            CY Allocable PRB Cost                                                $3,045,816      $117,354
                            Medicare LOB* Percentage                                                  0.92%        82.49%
            2007            CY Allowable PRB Costs                                                  $28,022       $96,805   $124,827

            2007            FY Allowable PRB Costs                                                  $29,913      $104,212   $134,125




                                                                                   Total          Other        Medicare      Total
            Date                           Description                            Company        Segment       Segment      Medicare

            2008            Contributions                                          $2,111,248    $2,111,248
                            Discount for Interest                                   ($150,821)    ($150,821)
     January 1, 2008        Present Value Contributions                            $1,960,427    $1,960,427
                            Prepayment Credit Applied                                $154,009      $154,009
                            Present Value of Funding                               $2,114,436    $2,114,436

     January 1, 2008        CAS Funding Target                                     $1,944,423    $1,944,423
                            Percentage Funded                                                       100.00%
                            Funded PRB Cost                                                      $1,944,423
                            Unallowable Interest                                                   ($37,681)
                            Allowable Interest                                                     $108,049
            2008            CY Allocable PRB Cost                                                $2,014,791
                            CY Allocable Pay-As-You-Go Cost                                         $78,683
                            Total CY Allocable PRB Cost                                          $2,093,474
                            Headcount Percentage                                                     96.84%         3.16%
            2008            CY Allocable PRB Cost                                                $2,027,320       $66,154
                            Medicare LOB* Percentage                                                  0.82%        90.43%
            2008            CY Allowable PRB Costs                                                  $16,624       $59,823    $76,447

            2008            FY Allowable PRB Costs                                                  $19,474       $69,069    $88,543




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)                                           10
                                                                                   Total          Other        Medicare      Total
            Date                           Description                            Company        Segment       Segment      Medicare

            2009            Contributions                                          $2,939,785    $2,939,785
                            Discount for Interest                                   ($209,988)    ($209,988)
     January 1, 2009        Present Value Contributions                            $2,729,797    $2,729,797
                            Prepayment Credit Applied                                $183,614      $183,614
                            Present Value of Funding                               $2,913,411    $2,913,411

     January 1, 2009        CAS Funding Target                                     $2,698,099    $2,698,099
                            Percentage Funded                                                       100.00%
                            Funded PRB Cost                                                      $2,698,099
                            Unallowable Interest                                                   ($40,696)
                            Allowable Interest                                                     $150,586
            2009            CY Allocable PRB Cost                                                $2,807,989
                            CY Allocable Pay-As-You-Go Cost                                         $83,560
                            Total CY Allocable PRB Cost                                          $2,891,549
                            Headcount Percentage                                                     97.09%         2.91%
            2009            CY Allocable PRB Cost                                                $2,807,405       $84,144
                            Medicare LOB* Percentage                                                  0.85%        90.21%
            2009            CY Allowable PRB Costs                                                  $23,863       $75,906    $99,769

            2009            FY Allowable PRB Costs                                                  $22,053       $71,885    $93,938




                                                                                   Total          Other        Medicare      Total
            Date                           Description                            Company        Segment       Segment      Medicare

            2010            Contributions                                          $2,911,415    $2,911,415
                            Discount for Interest                                   ($194,184)    ($194,184)
     January 1, 2010        Present Value Contributions                            $2,717,231    $2,717,231
                            Prepayment Credit Applied                                $232,537      $232,537
                            Present Value of Funding                               $2,949,768    $2,949,768

     January 1, 2010        CAS Funding Target                                     $2,671,106    $2,671,106
                            Percentage Funded                                                       100.00%
                            Funded PRB Cost                                                      $2,671,106
                            Unallowable Interest                                                   ($37,857)
                            Allowable Interest                                                     $139,891
            2010            CY Allocable PRB Cost                                                $2,773,140
                            CY Allocable Pay-As-You-Go Cost                                        ($12,952)
                            Total CY Allocable PRB Cost                                          $2,760,188
                            Headcount Percentage                                                     97.48%         2.52%
            2010            CY Allocable PRB Cost                                                $2,690,631       $69,557
                            Medicare LOB* Percentage                                                  0.85%        91.29%
            2010            CY Allowable PRB Costs                                                  $22,870       $63,499    $86,369

            2010            FY Allowable PRB Costs                                                  $23,118       $66,601    $89,719


    * Line of business.



Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)                                           11
ENDNOTES

 1/ We calculated Total Company contributions by taking the contribution amounts from the PRB actuarial valuation reports plus any direct
    benefit payments that were not reimbursed by the VEBA trust, as provided by the Association. Such contributions can be used to satisfy
    the funding requirement of FAR 31.205-6(o)(2)(iii). The contributions included deposits made during the plan year (PY) and the
    discounted value of accrued contributions, if any, deposited after the end of the PY but within the time allowed for filing tax returns.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the 

    contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference 

    between the present value of contributions and actual contribution amounts. Interest is determined using the expected long-term rate of 

    return assumption as reported in the PRB actuarial valuation report. 


 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the 

    calendar year (CY). 


 4/ The present value of funding represents the present value of contributions plus prepayment credits (see endnote 14) plus unreimbursed
    direct benefit payments made to participants covered under the VEBA trust and included in the accrued PRB costs. This is the amount of
    funding that is available to cover the CAS funding target measured at the first day of the CY.

 5/ The CAS funding target is based on the assignable PRB costs computed during our review. The CAS funding target must be funded by
    accumulated prepayment credits, current year contributions, or direct benefit payments to satisfy the funding requirements contained in
    the FAR.

 6/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the CY. Because any 

    funding in excess of the CAS funding target is accounted for as a prepayment, the funded ratio may not exceed 100 percent. We 

    computed the percentage funded as the present value of funding divided by the CAS funding target. For purposes of illustration, the 

    percentage of costs funded has been rounded to four decimal places.


 7/ We computed the funded PRB cost as the CAS funding target multiplied by the percent funded.

 8/ We assumed that interest on the funded PRB cost accrues in the same proportion as the interest on contributions bears to the present value
    of contributions. However, we limited the interest in accordance with FAR 31.205-6(o)(4), which provides that interest costs are
    unallowable if caused by a delay in funding beyond 30 days after the end of each quarter to which they are assigned.

 9/ The CY allocable PRB cost is the funded PRB cost discounted to the beginning of the PY plus allowable accrued interest attributable to
    funding which occurred after the first day of the PY.

10/ We allocated the PRB costs to the Medicare and Other segments by the total number of participants in the PRB plan who were 40 years
    old or older. We determined the number of participants who were in the Medicare segment and Other segment and used those
    percentages to allocate costs to the Medicare and Other segments.

11/ We determined the Medicare LOB percentages based on salary information provided by the Association.

12/ We computed the CY allowable PRB costs as the CY allocable PRB cost multiplied by the Medicare LOB percentage.

13/ We converted the CY allowable PRB cost to an FY basis (October 1 through September 30). We calculated the FY allowable PRB costs
    as 1/4 of the prior year’s costs plus 3/4 of the current year’s costs.

14/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is created
    when contributions, plus interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, with interest, to
    fund future PRB costs.

15/ The CY allocable pay-as-you-go PRB cost is the amount of direct benefits paid for key employees (that were not funded or reimbursed
    from the VEBA trust) that may be allocated for contract cost purposes.

16/ The unallowable interest represents the interest cost attributable to the unallowable unfunded costs that was included in the current-period
    PRB cost, discounted to the beginning of the year at the long-term interest rate.




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)                                                       12
                                  APPENDIX D: AUDITEE COMMENTS





                                                                                                        lllueCI'Oo•lllueSh.ield
                                                                                                        Assoclnlion
                                                                                                        .\ t1 :\S$1)¢1(lti(ll1 ()I'TndC(H)Il(lr;-nl
                                                                                                        Dlne Cr(IU o\ml Bltte.Siut>l~l rl;ul~

             May 15, 2014
                                                                                                        225 1\orlll \1ichi~nn Avenue
             Mr. Patrick J. Cogley                                                                      ChiC'ago, Jllinoj~ 60(tl>J·76SO
                                                                                                        312.297 .6•)00
             Regional Inspector General for Audit Services                                              Fax Jl2.2'11.660'1
             Office of Audit Services. Region VII                                                       \.,_WW.IlCBS.com
             601 East 12'h Street, Room 0429
             Kansas City, Missouri 64106

             RE: Report Number A-07-14-00434

             Dear Mr. Cogley:

             In response to your letter dated April 21, 2014, regarding the Office of Inspector General (OIG), Office of
             Audit Services draft audit report entitled "Blue Cross Blue Shield Association Did Not Claim Some
             Allowable Medicare Postretirement Benefits Costs for Fiscal Years 2002 Through 2010. please be
             advised that the Blue Cross and Blue Shield Association (Association} h<ls accepted the OIG's audit
             recommentations and will undertake the following steps to implement the corrective action:

                 •   As an alternative to the recommendation to revise FACPs for FYs 2002 through 2010, we will
                     explore the possibility of loll owing the accepted procedure used to settle the Medicare Pension
                     audit (which also resulted in an amount due to BCBSA). We will work with Gretchen Meyer of
                     Centers of Medicare and Medicaid Services to claim a refund of $14,229 due to the Association.

                 •   Enhance accounting procedures to claim future allowable Medicare Postretirement Benefits
                     costs.




              irector, General Accounting
             Corporate Finance

             With attachment

             Copies without attachment to:

             Mitch Helfand, BCBSA                     Kevin Shanklin, BCBSA
             Peter Kelly, BCBSA                       Jay Pinkerton, Aon Hewitt
             Sharon Keyes, BCBSA                      Jenenne Tarnbke, DHHS OIG
             Ed Sawica. BCBSA                         Jeffrey Wilson, DHHS OlG




Blue Cross Blue Shield Association Postretirement Benefit Costs Claimed (A-07-14-00434)                                                               13
